U.S. Department of Justice
Office of the Inspector General



       Review of Department of Justice Grants to the
        Association of Community Organizations for
            Reform Now, Inc. (ACORN) and its
                  Affiliated Organizations




                           November 2009
Review of Department of Justice Grants to the Association
    of Community Organizations for Reform Now, Inc.
         (ACORN) and its Affiliated Organizations

      In response to a congressional request, the Office of the Inspector
General (OIG) conducted this review to determine whether the Department
of Justice (DOJ) had provided grants to the Association of Community
Organizations for Reform Now, Inc. (ACORN). In our review, we examined
whether: (1) ACORN applied for federal funds through DOJ-administered
grant programs, (2) ACORN received federal funds through
DOJ-administered grant programs, (3) controls were placed on the use of
DOJ grant funds awarded to ACORN, and (4) DOJ conducted any reviews or
audits of the use of DOJ grant funds awarded to ACORN. We also conducted
the same analysis for organizations we determined to be ACORN affiliates.

        Our review did not find any direct DOJ grants to ACORN during the
past 7 years. However, as described below, we found that one recipient of
DOJ grant funds entered into a sub-agreement with ACORN for program
activities. In addition, we identified one direct grant of DOJ funds to an
affiliate of ACORN. We also identified three instances in which a DOJ
grantee entered into a sub-award with an ACORN affiliate. Thus, in total, we
found that ACORN and its affiliates received one direct grant and four sub-
awards totaling approximately $200,000 between fiscal years (FY) 2002 and
2009. In addition, during this period we determined that ACORN affiliates
submitted five applications for DOJ grant funds that were denied.

       Specifically, with respect to the sub-award received by ACORN, we
determined that a DOJ grant recipient, Citizens Committee for New York
City, Inc. (CCNYC), entered into a sub-award agreement with ACORN in
September 2008. CCNYC had received a congressionally mandated DOJ
grant (earmark) of $290,663 to run a Crime Stoppers Program in New York
City. CCNYC subcontracted with 21 organizations (including ACORN) for
services related to this program. ACORN received a $20,000 sub-award to
perform activities in coordination with local law enforcement authorities
intended to create safer neighborhoods, such as participating in monthly
community meetings with law enforcement officials and working with
community members to create plans that targeted concentrated pockets of
criminal activity. However, we determined that as of November 12, 2009,
no funds have been paid to ACORN by the CCNYC under that agreement
because ACORN submitted a reimbursement request for costs outside the
scope of the agreement. According to DOJ, CCNYC is awaiting
documentation from ACORN before disbursing the funds.



                                   -1-
        In addition, we identified one direct grant of DOJ funds to an ACORN
affiliate, the New York Agency for Community Affairs, Inc. (NYACA). We
considered NYACA to be an affiliate of ACORN because it acted as a fiscal
agent for ACORN, engaged in substantial financial transactions with ACORN,
and DOJ grant documentation showed that ACORN was a major partner in
the grant program being funded. In FY 2005, NYACA received a grant of
$138,130 resulting from a congressional earmark. The purposes of the
grant to NYACA were to provide youth leadership training to students at
select New York City schools; form “ACORN Youth Union” chapters; and
coordinate student campaigns to address issues such as school funding,
neighborhood safety, and school governance.

       We also determined that three DOJ grantees entered into
sub-agreements with ACORN affiliates. First, in December 2007 the ACORN
Institute, Inc., received a $13,000 sub-award from a $200,000 grant to
Operation Weed and Seed – St. Louis, Inc., to canvass designated
neighborhoods in the St. Louis area in an effort to recruit community
members to participate in Weed and Seed program activities.

       Second, another DOJ grantee, the city of Phoenix’s Neighborhood
Services Department, entered into a sub-award agreement with the ACORN
Institute to receive $8,539 from its $150,000 Weed and Seed grant to
canvass residents and increase awareness of the Earned Income Tax Credit
and free tax preparation for residents of designated neighborhoods in the
city of Phoenix. However, as of November 16, 2009, the city of Phoenix had
not paid any of the sub-award funds to the ACORN Institute and had put the
sub-award on hold due to poor reporting by the ACORN Institute regarding
another project not related to DOJ grant funds. According to the DOJ’s
Office of Justice Programs (OJP), the city of Phoenix was planning to seek
approval from its steering committee to terminate the sub-award with the
ACORN Institute and use the funds for other program needs.

      Third, in July 2002 another DOJ grantee, the National Training and
Information Center (NTIC) in Chicago, Illinois, entered into a $20,000 sub-
award agreement with an ACORN affiliate, the American Institute for Social
Justice (AISJ). The grant program was called the Community Justice
Empowerment Project and, according to grant documents, the congressional
earmark award to NTIC was to provide training, technical assistance, and
funding to community-based organizations nationwide to address problems
of crime, violence, and substance abuse, and to assist in the revitalization
and redevelopment of communities. NTIC paid AISJ the full sub-award
amount of $20,000. However, neither NTIC nor AISJ provided evidence of
what specific activities the sub-award was expected to fund or the purposes
for which the funds were ultimately used.

                                    -2-
       We determined that DOJ components that issued the grants had not
audited or otherwise reviewed the use of funds awarded to and disbursed to
ACORN or their affiliates. However, the OIG issued an audit in 2008 of the
grant to NTIC. The OIG audit found that the NTIC did not properly manage
the grant and did not adequately monitor some of its 36 sub-grantees,
including the AISJ. We included the $20,000 sub-award to the AISJ in the
total amount of questioned costs identified in our audit.

     Finally, we identified five applications for DOJ grant funds submitted to
DOJ components by ACORN affiliates from FY 2003 to FY 2009 that were
denied.

       The details of our review are provided in the remainder of this report.

BACKGROUND

       According to its website, ACORN is a non-profit social justice
organization with national headquarters in New York, New Orleans, and
Washington, D.C., and more than 1,200 neighborhood chapters in about
75 cities across the country. The website states that ACORN provides
assistance with voter registration, free preparation of tax returns, first-time
homeowner mortgage counseling, foreclosure prevention assistance, and low
income housing development.

       ACORN received widespread attention in September 2009 as a result
of disclosure of hidden camera videos allegedly depicting ACORN employees
providing advice on operating an illegal business, tax evasion, and money
laundering. 1 Following disclosure of the videos:

   •   The U.S. Census Bureau terminated its partnership with ACORN for the
       2010 census.

   •   The Internal Revenue Service (IRS) released a statement that it had
       removed ACORN from its Volunteer Income Tax Assistance Program.

   •   Some states and localities, including New York and Maryland, initiated
       reviews or investigations of ACORN, while others terminated business
       relations with the organization.

       1
          The videos were of events in Baltimore, Maryland; Washington, D.C.; Brooklyn,
New York; San Diego, California; and San Bernardino, California. According to ACORN press
releases, ACORN terminated the employees involved in the events depicted in the videos.


                                          -3-
   •   Congress included in the Continuing Appropriations Resolution, 2010, a
       provision that bars providing federal funds to ACORN and its “affiliates,
       subsidiaries, or allied organizations.” 2

       On September 15, 2009, Congressman Lamar Smith, the Ranking
Member on the House Judiciary Committee, wrote to the OIG asking us to
initiate a review to determine whether any DOJ grant funds had been applied
for or received by ACORN, what types of controls were placed on DOJ funds
received by ACORN, and whether the DOJ had audited or reviewed ACORN’s
use of these funds. In a letter to the Congressman dated
September 21, 2009, we agreed to conduct such a review.

SCOPE AND METHODOLOGY OF OIG REVIEW

        The objectives of our review were to determine whether: (1) ACORN
or any of its affiliates applied for federal funds through DOJ-administered
grant programs, (2) ACORN or its affiliates received federal funds through
DOJ-administered grant programs, (3) controls were placed on the use of
DOJ grant funds awarded to ACORN or its affiliates, and (4) DOJ conducted
any reviews or audits of the use of DOJ grant funds awarded to ACORN or its
affiliates. 3

Time Period Covered

       The time period covered by our review depended somewhat on the
records retained by the DOJ components that make grants. At a minimum,
our review was designed to identify: (1) grant applications submitted by
ACORN and its affiliates from FY 2003 through FY 2009; (2) awards made
directly to ACORN or an affiliate from FY 2003 through FY 2009; (3) the
awarding of DOJ grant funds by a direct grant recipient of DOJ funds to
ACORN or to an ACORN affiliate (a sub-grant or sub-award) for all grants
that remained open as of October 2009 and for all grants closed in FY 2007




       2
        Pub. L. No. 111-068 (2009). The Office of Management and Budget (OMB)
subsequently issued guidance to federal agencies on how to comply with this requirement
(OMB Memorandum M-10-02 issued October 7, 2009).
       3
         In this report, the term “grant” includes cooperative agreements awarded by DOJ
components, and these types of agreements were encompassed within the scope of our
review. Unlike grants of funds, federal agencies awarding cooperative agreements expect
“substantial involvement” in carrying out the activity contemplated in the agreement, such
as an award for training and technical assistance.


                                           -4-
through FY 2009;4 and (4) any DOJ audits and reviews of the direct grants
and sub-awards made to ACORN and its affiliates that we identified. 5

ACORN and its Affiliates

       To determine possible ACORN affiliates, we constructed a broad list
with information compiled from a variety of sources including state corporate
records, trademark information, IRS Forms 990, websites, and searches of
public records databases. 6 We also obtained information about the financial
relationships and transactions between ACORN and possible affiliates,
Employer Identification Numbers, Data Universal Numbering System (DUNS)
numbers, names of organizations, addresses, telephone numbers, and
website domain information.

      However, we determined that this broad list was over-inclusive and
included organizations that were likely not actual ACORN affiliates.
Nevertheless, we provided this list to DOJ grant-making components to
improve the likelihood of identifying DOJ grants awarded to an organization
with some affiliation to ACORN. We asked the DOJ grant-giving components
to search their records for grant applications and direct grant awards to the
organizations on the list of possible ACORN affiliates.


       4
         Each award has a time period during which the project is to be implemented,
known as a “project period.” An award is “open” during the project period and, following
the end of the project period, until various administrative requirements are satisfied, at
which point the award is closed. Sub-awards are defined for purposes of this report as DOJ
grant funds provided to sub-recipients by the original award recipient. These sub-awards
are usually in the form of contracts, memoranda of understanding, or other agreements
signed between the recipient and sub-recipient and are sometimes referred to as sub-
grants, sub-agreements, or sub-contracts.
       5
         Some DOJ grant-making components retained records of direct grant awards
before FY 2003. For example, the Office of Community Oriented Policing Services’ (COPS)
database retained application and direct award records from FY 1994 through the present.
The Office of Justice Programs (OJP) informed us that its electronic records of applications
and direct awards may not be complete for FYs 2003 to 2005. Those components that had
information prior to FY 2003 searched their records that were readily accessible without any
time-period restrictions. For sub-awards, DOJ grant-making components searched their
open grants and those that had closed within the past 3 fiscal years, because gathering
such information about sub-grants required the components to contact thousands of DOJ
grantees.
       6
          “ACORN affiliate” is a term that, while used often in connection with issues
concerning ACORN funding, has not been defined in connection with the reviews requested
or the legislation enacted by Congress. IRS Forms 990 (Return of Organization Exempt
from Income Tax) are publicly available annual reporting returns that certain federally tax-
exempt organizations must file with the Internal Revenue Service.

                                            -5-
        In addition, we asked the DOJ grant-making components to identify
whether ACORN or its affiliates had received any DOJ grant funds as a sub-
recipient. Specifically, we asked the components to contact all of their
active grantees and recipients of awards that were closed within the past
3 years to determine if any sub-awards were provided to ACORN or any of
its affiliates. 7

DOJ Components

      We gathered information about any grants to ACORN or its affiliates
from the following DOJ grant-making components. 8

   •   The Office of Justice Programs (OJP) awards a broad range of
       grants relating to crime prevention and control, improving justice
       systems, increasing knowledge about crime, and assisting crime
       victims. In FY 2008, OJP awarded over 3,000 grants totaling over
       $1.7 billion.

   •   The Office of Community Oriented Policing Services (COPS)
       awards grants to state, local, territory, and tribal law enforcement
       agencies to hire and train community policing professionals, acquire
       and deploy crime-fighting technologies, and develop and test policing
       strategies. COPS funding also provides training and technical
       assistance to community members, local government leaders, and law
       enforcement. COPS provided approximately 1,000 grants totaling
       about $300 million in FY 2008.

   •   The Office on Violence Against Women (OVW) awards grants to
       provide assistance to communities that are developing programs,
       policies, and practices aimed at ending domestic violence, dating
       violence, sexual assault, and stalking. Throughout FY 2008, OVW
       made 655 grant awards totaling over $330 million.

   •   The Federal Bureau of Prisons (BOP) National Institute of
       Corrections (NIC) awards funds for cooperative agreements to
       organizations that provide training, technical assistance, information
       services, and policy/program development assistance to federal, state,
       and local corrections agencies. NIC awarded 41 cooperative
       agreements during FY 2008 totaling over $6.5 million.

       7
          Some awarding agencies were already planning to or in the process of contacting
active grantees in accordance with the guidance in OMB Memorandum M-10-02.
       8
         The descriptions of the types of grants these agencies awarded were obtained from
their websites.

                                          -6-
   •   The Civil Rights Division Office of Special Counsel for
       Immigration-Related Unfair Employment Practices provides
       grants to organizations that assist discrimination victims; conduct
       seminars for workers, employers, and immigration service providers;
       distribute educational materials in various languages; and place
       advertisements in local communities to educate workers and
       employers about their rights. The Civil Rights Division Office of Special
       Counsel for Immigration-Related Unfair Employment Practices
       provided over $700,000 in grant awards in FY 2008 to 11
       organizations.

Quality of the Searches

      In our review, we required the components to certify that they
performed a thorough search of records to identify ACORN applications,
grants, and sub-awards. All of the components provided this certification to
us. 9

       The OIG also performed independent searches of data sources
identifying DOJ grantees, such as OJP’s Grant Management System, for
grants to ACORN or possible ACORN affiliates. In addition, we searched the
Federal Audit Clearinghouse database to identify any “single audits” of
possible ACORN affiliates. 10 We obtained from the Federal Audit
Clearinghouse single audits of those organizations that we identified as
possible ACORN affiliates, and we reviewed these audits to determine if the
organizations had received DOJ grant funds. In a further effort to identify
any DOJ audits or reviews of the use of DOJ funds by these organizations,
we searched OIG databases and records, searched OJP’s Grant Management

       9
          The list of possible ACORN affiliates we provided to the components included
several organizations unrelated to ACORN that we knew had received DOJ awards. We
included these names in the list to verify the quality of the components’ searches for
grantees from the list we provided. The components accurately identified these records,
which is an indication that they performed a thorough search for grantees on the list.
       10
           The Federal Audit Clearinghouse within the U.S. Census Bureau administers a
database of single audits that have been conducted. Single audits are performed by public
accountants or a federal, state or local government audit organization in accordance with
generally accepted government auditing standards. They are intended to determine
whether the financial statements and schedule of expenditures of federal awards are
presented fairly, to test internal controls over major programs, to determine whether the
grant recipient is in compliance with requirements that may have a direct and material
effect on each of its major programs, and to follow up on prior audit findings. These audits
are required to be performed for organizations that expend $500,000 or more in federal
awards in accordance with the Single Audit Act of 1984, as amended, and Office of
Management and Budget (OMB) Circular A-133.

                                           -7-
System, and asked DOJ components to identify any reviews they had
performed of the grants identified.

RESULTS

      Exhibit 1 shows the applications, grants, and sub-awards we identified
that relate to ACORN and its affiliates. As discussed in the following
sections, OJP and the Civil Rights Division were the only DOJ components
that received applications from or made grants, directly or indirectly, to
ACORN or its affiliates.

                       EXHIBIT 1: SUMMARY OF RESULTS

Organization and Type of Grant                          City, State           Amount            Year
Association of Community Organizations for Reform Now, Inc.
                              11                            New York, NY           $ 20,000     FY 2009
- Sub-award from OJP Grant
New York Agency for Community Affairs, Inc.
- Direct OJP Grant                                          New York, NY          $138,130      FY 2005
ACORN Institute, Inc.
- Sub-award from OJP Weed and Seed Grant                    St. Louis, MO          $ 13,000     FY 2007
                                               12             Phoenix, AZ            $8,539     FY 2009
- Sub-award from OJP Weed and Seed Grant
- Application Denied for OJP Recovery Act Grant          Washington, DC           $ 790,087     FY   2009
- Application Denied for Civil Rights Division Grant           Granite, IN         $ 80,000     FY   2003
- Application Denied for Civil Rights Division Grant     New Orleans, LA           $ 73,412     FY   2004
- Application Denied for Civil Rights Division Grant     New Orleans, LA           $ 73,412     FY   2004
American Institute for Social Justice, Inc.
- Sub-award from OJP Grant                               Washington, DC             $20,000     FY 2002
ACORN Housing Corporation, Inc.
                                                     13        Chicago, IL     Not Available    FY 2003
- Application Denied for Civil Rights Division Grant

      The grants or sub-grants to each of these organizations, and the
applications for such grants, are discussed in detail below, including an
analysis of the funds applied for and received and the association of each
organization with ACORN.




       11
          As discussed below, a sub-award agreement was entered into in September 2008,
but as of November 12, 2009, the funds have not been provided to ACORN.
       12
          As discussed below, while the sub-award contract has been agreed to and signed,
as of November 16, 2009, the funds have not been paid to ACORN Institute, Inc. OJP
informed us that the grantee was seeking authorization to use the funds for another
purpose.
       13
          The Civil Rights Division identified this application to us but could not locate or
provide us with the application document or the amount of funds requested.

                                             -8-
Sub-Award of DOJ Grant Funds to the Association of Organizations
for Reform Now, Inc. (ACORN)

      In our review, we identified one instance in which ACORN itself
received DOJ grant funds through a sub-award.

ACORN’s Sub-Award from an OJP “Byrne Discretionary” Grant in 2008

      According to OJP grant documents, the Citizens Committee for New
York City, Inc. (CCNYC), received a congressionally mandated award
(earmark) under OJP’s Bureau of Justice Assistance (BJA) “Byrne
Discretionary” program in FY 2008. 14 The amount of the grant was
$290,663, and the project period is from July 2008 through February
2010. 15 The program for which CCNYC received grant funds was called the
“Community Crime Stoppers Program.”

       Most of the funding ($230,000 of $290,663) was designated for sub-
awards, ranging from $5,000 to $20,000, to 21 organizations. Under the
program, the CCNYC planned to partner with the sub-award organizations to
develop anti-crime/community improvement activities in New York City
communities. For example, one organization proposed patrols around a
neighborhood skate park to watch for crime, drug use, and vandalism.
Another organization stated it would provide counseling, legal assistance,
emergency shelter referrals, and advocacy on behalf of crime and abuse
victims. A third organization planned to create an after-school program for
at-risk elementary school children. The CCNYC grant program narrative
submitted with its application stated that it planned to monitor the work of
the 21 organizations identified in the application, one of which was ACORN.
The program narrative also stated that CCNYC’s goal was to support the
21 organizations and help increase their effectiveness in an effort, together
with local law enforcement and other service providers, to create safer
neighborhoods.

     According to information provided by OJP, CCNYC entered into a sub-
award agreement with ACORN in September 2008 for $20,000. The sub-
award contract between ACORN and the CCNYC provided that the $20,000 in
sub-award funds was to be used to pay 70 percent of the ACORN Project



       14
          According to its website, CCNYC is a non-profit organization that “stimulates and
supports self-help and civic action to improve the quality of life in New York City and its
neighborhoods.”
       15
            OJP grant number 2008-DD-BX-0508.

                                           -9-
Coordinator’s salary for one year, from July 1, 2008, to June 30, 2009.16
The Project Coordinator’s duties according to the contract were to attend
monthly meetings and work with law enforcement in New York City to
identify problematic locations that require increased police presence; work
with community affairs officers, detectives, and local residents to create
plans that target concentrated pockets of drug activity and violence;
establish a unique protocol for ACORN members to report incidents in order
to improve police response time; and consent to the use of ACORN’s name
for publicity and advertising purposes.

       The sub-award agreement signed between ACORN and CCNYC
required ACORN to submit to CCNYC financial status reports quarterly and
progress reports on a semi-annual basis. According to the CCNYC’s grant
progress report to OJP for the period January through June 2009, ACORN
contributed to the grant program by identifying several “core issues” that
affected the target community, such as fixing elevators, wheelchair
accessibility, and installing security cameras; “nurturing grassroots
infrastructure”; and “organizing tenants to realize their goals.” 17

      The CCNYC agreement allowed CCNYC to exercise control over sub-
contract payments proposed by ACORN, including requirements that ACORN
be reimbursed only for expenses in accordance with the budget attached to
the agreement, that ACORN submit proper documentation and
reimbursement requests to CCNYC, that ACORN deliver the required services
within the grant period, and that budget modifications be approved by DOJ.

      OJP officials told the OIG that as of November 12, 2009, the CCNYC
had not provided the sub-grant funds to ACORN because ACORN submitted a
reimbursement request that included costs outside the scope of the
agreement. According to OJP, ACORN asked that it be reimbursed with
grant funds for its payments of “fringe benefits” for the Project
Coordinator. 18 However, ACORN’s sub-award agreement only provided for
payment from grant funds for the salary of the Project Coordinator. OJP told

       16
         The sub-award identified the New York Agency for Community Affairs (NYACA) as
ACORN’s fiscal agent. NYACA received a separate direct DOJ grant discussed later in this
report.
       17
          OJP grants generally require grantees on a semi-annual basis to submit progress
reports identifying grant accomplishments.
       18
           The IRS defines fringe benefits as a form of compensation for the performance of
services in addition to salary or rate of pay. Unfunded fringe benefits listed on ACORN’s
sub-award agreement with CCNYC included employer payments for Federal Insurance
Contributions Act taxes (Social Security and Medicare), state unemployment insurance, and
workers’ compensation insurance.

                                          - 10 -
us that, according to CCNYC, CCNYC had informed ACORN either to remove
the fringe benefit cost from the reimbursement request or amend its budget
to include the fringe benefits. OJP also told the OIG that it understood that
CCNYC intended to provide ACORN with the grant funds if ACORN satisfied
one of these requirements.

     According to OJP’s Grant Management System, OJP has not conducted
any audits, financial reviews, or site visits relating to this grant.

Direct Grant of DOJ Funds Awarded to an ACORN Affiliate, the New
York Agency for Community Affairs

      We identified one grant of DOJ funds directly to an ACORN affiliate, the
New York Agency for Community Affairs, Inc. (NYACA). According to its
financial statement, the mission of NYACA is to educate the public about
rights, privileges, and opportunities in the area of housing. Its financial
statement also stated that the NYACA is one of a number of nonprofit
organizations run by independent boards of directors who share common
functions, costs, and operate under “common controls by individuals who
could exercise influence over their day-to-day decisions.”

       The OIG determined that NYACA was affiliated with ACORN based on
the following information. First, the NYACA’s 2005-2006 financial statement
identified ACORN as an “affiliated organization.” In addition, according to its
IRS Form 990, in 2007 NYACA provided 97 percent of its $730,334 gross
income to ACORN for “contractual services.” The NYACA’s 2005-2006
financial statement also stated that the NYACA acts as a fiscal agent for
ACORN by remitting to ACORN certain gifts and grants that NYACA
receives. 19




      19
          NYACA was also listed as the fiscal agent for ACORN on a sub-award agreement
between the Citizens Committee for New York City, Inc., and ACORN as discussed
previously in this report.


                                         - 11 -
NYACA’s Grant from OJP in 2005

      We identified one direct grant from OJP to the NYACA. A congressional
earmark grant was provided by OJP to NYACA in 2005 for $138,130. 20 The
grant was awarded through OJP’s Office of Juvenile Justice and Delinquency
Prevention (OJJDP). 21

      The NYACA’s program title identified in the grant award document was
“ACORN Youth Organizing.” The award period for the grant was from
September 1, 2005, to August 31, 2006. The grant program narrative
submitted with the application described the program’s goals as:
(1) building a base of trained student leaders, (2) winning specific
improvements and policy changes, and (3) increasing post-high school
opportunities for young people.

      According to the budget detail submitted with the application, the
award funds were to be used entirely for personnel and benefits for the
following positions: (1) a part-time Executive Director, (2) a part-time
Brooklyn Schools Organizer, (3) a part-time Brooklyn Lead Organizer, and
(4) two full-time Youth Organizers.

      According to OJP, NYACA received all the grant funds with the last
draw-down in September 2006. NYACA was required to submit to OJP
quarterly Financial Status Reports and progress reports on a semi-annual
basis. The final Financial Status Report submitted by NYACA in March 2007
stated that it had incurred expenses for the grant program totaling the full
amount of the award, $138,130. NYACA submitted the last required semi-
annual grant progress report in December 2006 for the period covering
July 1, 2006, through August 31, 2006.

      In the award document, NYACA agreed to abide by general award
conditions, which included complying with the financial and administrative
requirements set forth in the OJP Financial Guide; complying with the
organizational audit requirements of OMB Circular A-133, Audits of States,
Local Governments, and Non-Profit Organizations; and receiving prior



       20
           OJP grant number 2005-JL-FX-0044. Award documentation identified the grant
program as “FY 2005 OJJDP Congressional Earmark Programs.” Therefore, we considered
this grant to be a congressional earmark.
       21
           While award documentation submitted by the grantee showed that its “legal
name” is New York Agency for Community Affairs, Inc., the grantee’s “organizational unit”
for the grant was New York Association of Community Organizations for Reform Now (New
York ACORN).

                                          - 12 -
approval from OJJDP for any deviations from the timeline provided in the
application or grant program implementation plan.

      OJP has not conducted any audits, financial reviews, or site visits of
this grant according to the information in OJP’s Grant Management System.
We identified a Single Audit Act report issued in April 29, 2008, of the
NYACA for the years ended 2005 and 2006. 22 That Single Audit Act audit did
not identify any significant deficiencies regarding NYACA’s use of DOJ
funds. 23

Sub-Awards of DOJ Grant Funds to the ACORN Institute, Inc., and
Four Applications for Grants by the ACORN Institute Denied

        We also identified two sub-awards of DOJ grants funds to an ACORN
Affiliate – the ACORN Institute, Inc. On its website, the ACORN Institute
stated that it is involved in projects such as free tax preparation, benefits
enrollment, foreclosure prevention services, and the IRS Volunteer Income
Tax Assistance Program. 24

       The OIG determined that the ACORN Institute is affiliated with ACORN
based on the following. The ACORN Institute website specifically states that
it works in partnership with ACORN. In addition, on ACORN’s website it
solicits “planned giving” donations for itself and the ACORN Institute. 25 The

       22
           As previously described in footnote 10 of this report, organizations that expend
$500,000 or more in federal awards must arrange for a “single audit” of its federal funds to
be performed in accordance with generally accepted government auditing standards to
provide assurance of accountability for federal awards. The single audit covers NYACA’s
financial statements and schedule of expenditures of federal awards, internal controls over
major programs, compliance with requirements that may have a direct and material effect
on its major programs, and prior audit findings. NYACA’s major program for the single audit
was a U.S. Department of Education award passed through the State of New York for
$891,068. A private certified public accounting firm in New Orleans, Louisiana, conducted
this single audit.
       23
           The single audit identified a bookkeeping error with regard to NYACA’s
misclassification of income and expenses for a U.S. Department of Education grant passed
through the state of New York. While the auditors identified this as a significant deficiency
in internal control over financial reporting, the auditors added an addendum to the report on
May 1, 2008, stating that the bookkeeping error was an isolated incident due to the
devastating impact of Hurricane Katrina, which in 2006 resulted in shortages in properly
trained staff for the company that handles NYACA’s accounting.

       24
           The IRS released a statement on September 23, 2009, that it terminated its
relationship with ACORN.
       25
         ACORN website, http://acorn.org/index.php?id=9908, accessed
October 20, 2009).

                                           - 13 -
solicitation describes ACORN and the ACORN Institute as two separate but
related legal entities, each with a different tax status. 26 However, the
ACORN Institute was listed as an “Allied Organization” on ACORN’s
website. 27 ACORN’s registered trademark appears on the ACORN Institute’s
website, indicating collective membership according to ACORN’s trademark
documentation maintained by the U.S. Patent and Trademark Office. 28 The
two organizations share a common address in New Orleans, Louisiana,
according to the ACORN Institute’s 2007 IRS Form 990 and ACORN’s
Louisiana state corporate records. Moreover, according to the ACORN
Institute’s publicly available 2006 IRS Form 990, the ACORN Institute
provided approximately $2.1 million of its $3.56 million gross income
(59 percent) to ACORN and ACORN Services, Inc., in the form of grants and
contracts. 29 According to its 2007 IRS Form 990, the ACORN Institute gave
41 percent, approximately $1.15 million, of its $2.8 million gross income to
ACORN and ACORN Services, Inc., as grants and payments for contract
services.

      We found that the ACORN Institute received two sub-awards of DOJ
grant funds. In addition, the ACORN Institute submitted four applications for
DOJ funds that were denied. These sub-awards and applications are
discussed below.




       26
          The website describes ACORN as a non-profit organization with no special tax
status that is free to participate in direct legislative lobbying; it notes that donations to
ACORN are not tax-deductible. The ACORN Institute, however, is described as a 501(c)(3)
organization that is not involved in direct legislative lobbying and represents that all
donations to the ACORN Institute are tax-deductible.
       27
         A cached version of an ACORN web address,
http://www.acorn.org/news/index.php?id=12375, as it appeared on September 4, 2009,
was accessed through a website caching service. This website was not functional as of
October 10, 2009.
       28
          The U.S. Patent and Trademark office defines a collective mark as a trademark or
service mark used, or intended to be used, in commerce, by the members of a cooperative,
an association, or other collective group or organization, including a mark that indicates
membership in a union, an association, or other organization.
       29
           While we did not review the full extent of the association between ACORN
Services, Inc., and ACORN, according to 2003 tax forms for ACORN available through the
Arizona Corporation Commission Public Access System, ACORN identified ACORN Services,
Inc., as a member of an affiliated group of corporations filing a consolidated return.

                                           - 14 -
ACORN Institute’s Sub-Award from an OJP Weed and Seed Grant in 2007

      In FY 2007, Operation Weed and Seed – St. Louis, Inc. (St. Louis
Weed and Seed), a non-profit organization located in St. Louis, Missouri,
received a $200,000 Weed and Seed grant from OJP’s Community Capacity
Development Office (CCDO). 30 The goals of the St. Louis Weed and Seed’s
project, entitled “Hamilton Heights Weed and Seed,” included increasing
neighborhood participation in prostitution reduction and identifying and
reducing open drug activity.

       St. Louis Weed and Seed’s grant budget proposal identified
approximately $34,000 for sub-awards to implement the “seeding” portion of
the program. Specifically, the sub-awards were to provide resources for
efforts in prostitution intervention, increasing the number of active “block
units” participating in the program, and the “clean-up program.” 31

      In September 2007, St. Louis Weed and Seed provided a sub-award
from this grant to the ACORN Institute for $13,000 of the $34,000 budgeted
for sub-awards. According to grant documentation, St. Louis Weed and
Seed’s sub-award recipients were required to follow procedures provided by
St. Louis Weed and Seed, be reimbursed for only those expenses expended
on a monthly basis, and complete semi-annual progress reports. According
to OJP, the Acorn Institute received the full amount of the sub-award,
drawing its last payment in December 2008.

      The agreement signed between St. Louis Weed and Seed and the
ACORN Institute specified that the ACORN Institute was required to submit
monthly financial reports, maintain an adequate system of accounting, and
allow St. Louis Weed and Seed to conduct inspections. In response to our
requests for additional information, the St. Louis Weed and Seed Program
Director told OJP in October 2009 that ACORN provided St. Louis Weed and

       30
          OJP Grant Number 2007-WS-Q7-0069. Weed and Seed is a DOJ program that
according to the CCDO’s website seeks to prevent, control, and reduce violent crime, drug
abuse, and gang activity in designated high-crime neighborhoods across the country. The
two-pronged strategy involves law enforcement and prosecutors "weeding out" criminals
while public agencies and community-based organizations "seed" the neighborhoods with
human services.
       31
          According to St. Louis Weed and Seed’s budget narrative submitted with its
application, “Block Units” were created to reach out to residents and provide training to help
monitor crime. Also according to the budget narrative, the “clean-up program” was
intended to assist clean-up efforts in the alleys of Weed and Seed neighborhoods by
removing debris blocking alleys and streets, and labeling garages and streets with
addresses to improve access for residents and police patrols.


                                           - 15 -
Seed with three progress reports and that ACORN’s schedules for outreach,
phone calls, and recruiting were approved by St. Louis Weed and Seed, as
were materials used in outreach and recruiting campaigns. St. Louis Weed
and Seed also stated that it regularly polled attendees at its Neighborhood
Residents Meeting to ensure that phone calls had been made and flyers had
been distributed by ACORN.

       St. Louis Weed and Seed’s first progress report to OJP dated
January 22, 2008, covering the reporting period October 2007 through
December 2007 described activities the ACORN Institute engaged in to
support St. Louis Weed and Seed’s “Prevention, Intervention, and
Treatment” activities. Specifically, the report stated that the ACORN
Institute personnel canvassed neighborhoods and engaged residents in
interviews centering on information gathering, education, crime prevention,
resident involvement, and identifying “Block Captains” for the program. In
its next two progress reports to OJP, St. Louis Weed and Seed stated that
the resident involvement at monthly neighborhood meetings increased as a
result of the ACORN Institute’s efforts, that the ACORN Institute expanded
the presence and role of Community Block Units in neighborhoods, and that
the ACORN Institute had helped identify approximately 80 residents to be
recruited as leaders and possible “Block Captains.”

      OJP has not conducted any audits, financial reviews, or site visits of
this grant according to the information in OJP’s Grant Management System.

ACORN Institute’s Sub-Award from an OJP Weed and Seed Grant in 2008

      According to grant documents, OJP’s Community Capacity
Development Office awarded a $150,000 Weed and Seed grant to the city of
Phoenix’s Neighborhood Services Department, with an award period of May
2008 through May 2010.32 The award to the city of Phoenix was to provide
funding to implement Weed and Seed projects in the Phoenix Capitol Mall
and Oakland University Park neighborhoods, including projects to address
violent crime, drug activity, gang activity, prostitution activity, and car
thefts.

      As part of the project’s neighborhood restoration strategy, the city of
Phoenix planned to “build assets of low- and moderate-income workers,
families and neighborhoods” by increasing awareness of Earned Income Tax
Credits and free tax preparation. The city of Phoenix agreed to provide a
sub-award from that Weed and Seed grant to the ACORN Institute in the
amount of $8,539 for services to be provided from November 2008 through

      32
           OJP grant number 2008-WS-QX-0126.

                                       - 16 -
June 2009. According to grant documents, under the sub-award the ACORN
Institute was to canvass the neighborhood to recruit participants for the
program and encourage them to obtain free tax preparation services.

        OJP said that as of November 16, 2009, the city of Phoenix had not
paid any of the sub-award funds to the ACORN Institute. OJP told the OIG
that the city of Phoenix had put the sub-award on hold due to poor reporting
by the ACORN Institute regarding its activities on another project not related
to DOJ grant funds, and was planning to seek approval from its steering
committee to use the funds for other program needs. 33

      As discussed next, we found that the ACORN Institute applied for four
other grants from DOJ components, including one for Recovery Act funds,
but those grant applications were denied.

ACORN Institute’s Application to OJP in 2009 for Recovery Act Funds

      The ACORN Institute in Washington, D.C., applied in April 2009 for
$790,087 in DOJ grant funds through OJP’s Recovery Act Edward Byrne
Memorial Competitive Grant Program. 34 The specific program for which the
ACORN Institute submitted its application was the Washington State
Mortgage Fraud and Crime Prevention Task Force Category III: Reducing
Mortgage Fraud and Crime Related to Vacant Properties. 35 In its application,
the ACORN Institute stated that the proposed scope of work for the project
was to operate a data-driven anti-foreclosure fraud campaign on a state-
wide basis with an emphasis in activities in Tacoma and Seattle. In its
program narrative, the ACORN Institute stated that it and the “Washington
ACORN (The Association of Community Organizations for Reform Now) have
a history of awareness and effective action on the issues of fair housing,
predatory lending, and fraud.”

      This application was denied. The documented reason for OJP’s denial
was that the “competitive process selected other applicants.”


       33
          According to OJP, the ACORN Institute had a city-wide contract for the city's
Volunteer Income Tax Assistance Program centers, but had little to no results in the Capitol
Weed and Seed site.
       34
            OJP application number 2009-G5460-DCSC.
       35
          Category III is one of the eight programs available for funding through the
Recovery Act Edward Byrne Memorial Competitive Grant Program. Applications are solicited
under Category III to increase the number of state and local investigators, prosecutors, and
crime prevention practitioners, and to support innovative efforts such as regional mortgage
fraud task forces that give states and localities additional tools to address mortgage fraud.

                                           - 17 -
ACORN Institute’s Application to the Civil Rights Division in 2003

      The ACORN Institute located in Granite, Indiana, submitted an
application in April 2003 for an $80,000 grant from the Civil Rights Division’s
Office of Special Counsel for Immigration-Related Unfair Employment
Practices. 36 The ACORN Institute applied for the grant in connection with its
“New Jersey Latino and Immigrant Employment Discrimination Education
Project.” The application proposed to conduct an education and outreach
campaign to Latino and immigrant workers and their employers on rights
and responsibilities under the anti-discrimination provisions of the
Immigration and Nationality Act.

       The application was denied. According to documents provided by the
Civil Rights Division, applications were reviewed and evaluated on several
factors, including the geographic scope of the proposed grant; a balanced
mix of education targeted at workers, employers, and immigration service
providers; broad demographic coverage; program design; administrative
capabilities of the applicant; staff capability of the applicant; and a
demonstration of similar, previously successful programs or work.

      The Civil Rights Division told the OIG that the application was not
selected for funding because it did not score high enough relative to other
applications.

ACORN Institute’s Application to the Civil Rights Division in 2004

      In May 2004, the ACORN Institute located in New Orleans, Louisiana,
submitted an application for a grant from the Civil Rights Division’s Office of
Special Counsel for Immigration-Related Unfair Employment Practices in the
amount of $73,412. 37 The ACORN Institute’s project title was the “Hispanic
and Immigrant Employment Discrimination Outreach Project.” The grant
application targeted areas in Los Angeles and Orange County, California.
This application sought to increase awareness in Hispanic and immigrant
communities on anti-discrimination provisions in the Immigration and
Nationality Act, in addition to preventing discrimination by employers.

      The application was denied. The Civil Rights Division told the OIG that
the application was not selected for funding because it did not score high
enough relative to other applicants.


      36
           Civil Rights Division application number OSC-03-46.
      37
           Civil Rights Division application number OSC-04-48.

                                           - 18 -
ACORN Institute’s Application to the Civil Rights Division in 2004

      Also in May 2004, the ACORN Institute located in New Orleans,
Louisiana, submitted another application to the Civil Rights Division’s Office
of Special Counsel for Immigration-Related Unfair Employment Practices
seeking the same amount of funding, $73,412. 38 This application was in
connection with the ACORN Institute’s “Maricopa County Hispanic and
Immigrant Employment Discrimination Outreach Project,” and the
geographic target area for this application was Maricopa County, Arizona.
According to the application, the ACORN Institute proposed to work in
conjunction with Arizona ACORN in the project’s implementation.

       The application was denied. The Civil Rights Division stated that the
application was not selected for funding because it did not score high enough
relative to other applications.

Sub-Award of DOJ Grant Funds to an ACORN Affiliate, the American
Institute for Social Justice

     We found that the American Institute for Social Justice (AISJ) received
one sub-award from a DOJ grant.

      According to its website, the American Institute for Social Justice
(AISJ) provides training and technical assistance in organizing principles and
methods and is a center for research and training on issues of concern to
low and moderate income people.

       The OIG determined that AISJ was affiliated with ACORN based on the
following information. In 2002 when AISJ received the sub-grant described
below, ACORN listed the AISJ on its website as being an ACORN affiliate.
ACORN currently states on its website that it works with AISJ to provide
training programs to transform poor communities. 39 AISJ’s IRS Form 990 in
2002, the year AISJ received DOJ grant funds, showed that it had gross
income of $2.529 million and provided ACORN with $1.684 million in grants,
67 percent of AISJ’s gross income. More recently, in 2006 AISJ provided
$4.95 million, 56 percent of its $8.84 million gross revenue, in grants to
ACORN, and in 2007 $165,644 in contractual payments to ACORN. 40 In
addition, the contact information for AISJ on its website shows that it has

       38
            Civil Rights Division application number OSC-04-42.

       39
            http://acorn.org/index.php?id=917 (accessed October 19, 2009).
       40
           AISJ’s 2007 IRS Form 990 identified $4.51 million in total grants, but did not
identify the individual recipients of those grants.

                                            - 19 -
the same address and fax number as the ACORN office in the District of
Columbia. AISJ’s addresses listed on its 2002, 2003, and 2006 IRS Forms
990 are the same as ACORN’s address listed on its 2003 Tax Returns
available on Arizona’s corporate database. Similarly, AISJ’s Louisiana state
corporate records show as its principal business address the same address
provided on ACORN’s Louisiana state corporate records.

AISJ’s Sub-Award from an OJP grant in 2002

       We determined that between April 6, 2000, and December 31, 2003,
OJP’s Bureau of Justice Assistance awarded the National Training and
Information Center (NTIC) in Chicago, Illinois, an initial earmark grant and
three supplemental earmark grants totaling $3,162,580. 41 According to
grant documents, the purpose of the grants was to provide training,
technical assistance, and funding to community-based organizations through
sub-awards nationwide to address problems of crime, violence, and
substance abuse, and to assist in the revitalization and redevelopment of
their communities. The program was called the Community Justice
Empowerment Project.

       On July 2, 2002, NTIC provided a sub-award to AISJ in the amount of
$20,000. Although the contract for the sub-award was between NTIC and
AISJ and payment of the funds was made to AISJ, NTIC documents
identified “Toledo ACORN” as the recipient of this sub-award, which we
determined to be the ACORN organization located in Toledo, Ohio.

      NTIC’s agreements with its sub-recipients required them to:
(1) provide semi-annual financial reports or reimbursement requests that
detailed how the money was spent, and (2) maintain supporting
documentation at its place of business.

      In March 2008, the DOJ OIG issued an audit report on the Community
Justice Empowerment Project grant awarded by OJP to NTIC. 42 In brief, our
audit revealed significant irregularities in NTIC’s grant activities, significant
weaknesses in NTIC’s grant management practices and internal control
system, and various instances of unallowable, unsupported, and unapproved

      41
          OJP grant number 2000-DD-VX-0014. The conference reports that accompanied
the FY 2000, 2001, and 2002 DOJ appropriation statutes (106-479, 106-1005, and
107-278, respectively) directed that NTIC receive these grant funds. We refer to these
congressionally designated projects as “earmarks.”
      42
         U.S. Department of Justice Office of the Inspector General, Community Justice
Empowerment Project Grant Administered by the National Training and Information Center,
Audit Report GR-50-08-005 (March 2008).

                                        - 20 -
expenses. As a result of the significant grant irregularities, we questioned
the entire award amount of $3,162,580. 43 Due to the significance of our
findings and the questionable nature of some of NTIC’s activities, the OIG
Investigations Division conducted a criminal and civil investigation related to
this grant.

      As a result of the criminal investigation, the Executive Director of NTIC
pled guilty to intentionally misapplying federal funds and received a prison
sentence of 5 months, 5 months of home confinement, 24 months of
probation, a fine of $5,000, and a restitution order of approximately
$46,000. Pursuant to a subsequent False Claims Act case, NTIC paid
$550,000 to the U.S. government.

       The OIG’s audit focused principally on NTIC’s grant management, but
it also reviewed NTIC’s oversight of sub-recipients of grant funds. During
our review, in 2003 we attempted to contact NTIC’s 36 sub-recipients by
letters and telephone calls. Only 2 of the 36 sub-recipients were not
responsive to our efforts. One of the two non-responsive sub-recipients was
identified by NTIC as Toledo ACORN, although as noted above the written
sub-award agreement was between NTIC and AISJ.

      During our audit of NTIC, we found no evidence that NTIC officials had
ever visited Toledo ACORN or AISJ. Moreover, NTIC’s files did not contain
the required expenditure reports for Toledo ACORN or AISJ, and NTIC did
not have any supporting documentation for the sub-recipient’s expenditures.
Accordingly, our audit could not determine how the grant funds paid to AISJ
were spent. Because we were not able to contact Toledo ACORN, and their
records were not available for audit, we questioned the total funds paid to
this sub-recipient by NTIC, which amounted to $20,000.

Application for DOJ Grant Funds by ACORN Housing Corporation,
Inc., Denied

     Our review found that one application from ACORN Housing
Corporation, Inc. (ACORN Housing) in FY 2003 for a DOJ grant was denied.

     ACORN Housing is a national non-profit organization providing free
mortgage and housing counseling to low and moderate income home owners
and prospective buyers. Although ACORN Housing contains the acronym
ACORN in its name, it has a different Employer Identification Number from


       43
          In some instances, we questioned costs for more than one reason, resulting in the
total questioned costs being in excess of grant receipts. Our total dollar-related findings
amounted to $4,325,292.

                                          - 21 -
ACORN and, unlike ACORN, is identified as a charitable organization by the
IRS.

      However, the OIG determined that ACORN Housing was affiliated with
ACORN based on the following information. According to ACORN Housing’s
website, it was established in 1986 by ACORN to build and preserve housing
assets. ACORN Housing refers to ACORN throughout its website as a partner
and a sister organization. Moreover, according to ACORN’s 2006 Annual
Report, ACORN Housing Corporation was listed as an example of the “Best of
ACORN Organizing” in 2006. Louisiana state corporate records show that
ACORN Housing’s domicile address matches the address at which ACORN
maintains its principal business office. The same office address was
published on both the ACORN and ACORN Housing websites.

        Financial documents of ACORN Housing identified ACORN as one of its
“affiliated organizations” and showed that ACORN Housing received gifts and
grants from ACORN totaling $216,316 in 2006. The financial statement also
identified gifts and grants from the “ACORN Partnership” totaling $244,500
for 2007 and $520,228 in 2006. In addition, ACORN Housing’s 2007 IRS
Form 990 identified $119,509 in notes and loans receivable from ACORN.
ACORN Housing’s financial statement also identified several transactions
between ACORN Housing and the AISJ, another ACORN affiliate identified in
our review. 44 Specifically, ACORN Housing received $100,000 in gifts and
grants from AISJ and provided $1.4 million in gifts and grants to AISJ
between the 2 years covered by the financial statement.

       We identified one application for DOJ grant funds submitted by ACORN
Housing in FY 2003. According to the Civil Rights Division’s Office of Special
Counsel for Immigration-Related Unfair Employment Practices, ACORN
Housing in Chicago, Illinois, submitted an application for a FY 2003 Civil
Rights Division grant. The application was denied. The Civil Rights Division
told the OIG that it could not locate the application or provide the amount of
the funding request. We found no further information relating to this
application.

CONCLUSION

      Our review did not find any DOJ direct grants to ACORN. However, we
found that one recipient of DOJ grant funds entered into a sub-agreement
with ACORN for program activities. In addition, we identified one direct
grant of DOJ funds to an affiliate of ACORN. We also identified three

      44
           The AISJ received a DOJ sub-award discussed previously in this report.


                                           - 22 -
instances in which a DOJ grantee entered into a sub-award with an ACORN
affiliate. Thus, in total we found that ACORN and its affiliates received one
direct grant and four sub-awards totaling approximately $200,000 between
FYs 2002 and 2009. Three of the grants have closed while two others
remain open. For the two open grants, funds have not been disbursed to
ACORN as of November 2009. 45

      In addition, we determined that ACORN affiliates submitted five
applications for DOJ grant funds from FY 2003 to 2009 that were denied.

        We also determined that DOJ did not conduct any audits, financial
reviews, or site visits of the five grants that were awarded to ACORN or its
affiliates, either directly or as a sub-award recipient. We identified one
Single Audit Act report of ACORN affiliate NYACA that covered calendar years
2005 and 2006. In addition, the OIG issued an audit report in 2008 of a
DOJ grantee that provided a sub-award to an ACORN affiliate – the 2002
sub-award to the American Institute of Social Justice – and found that the
DOJ grantee mismanaged the grant and did not properly oversee the sub-
award to the ACORN affiliate.




       45
          The grantee for one open grant is seeking approval to use the funds for another
purpose. The grantee for the other open grant is awaiting documentation from ACORN to
disburse the funds.


                                          - 23 -
